CASE NO. 20-6891
IN THE UNITED STATES SUPREME COURT
RONALD KNIGHT,
Petitioner,
vs.
SECRETARY,

Florida Department of Corrections, et al.,
Respondents.

 

CERTIFICATE OF SERVICE
I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certifies that
on February 26, 2021, a copy of the Brief for Respondents in Opposition in the above-
entitled case was furnished electronically to Linda McDermott, Chief Assistant —
Capital Habeas Unit, Office of the Federal Defender Northern District of Florida, 227
N. Bronough St., Tallahassee, FL 32301, counsel for Petitioner herein. I further

certify that all parties required to be served have been served.

CAROLYN SNURKOWSKI*

Associate Deputy Attorney General
*Counsel of Record

Florida Bar No. 158541

OFFICE OF THE ATTORNEY GENERAL
PL-01, The Capitol

Tallahassee, FL 32399

Office: (850) 414-3300

Facsimile: (561) 837-5108

Primary Email: CapApp@myfloridalegal.com
Email: Carolyn.Snurkowski@myfloridalegal.com
COUNSEL FOR RESPONDENTS

35
